                                                  62074                        Federal Register / Vol. 76, No. 194 / Thursday, October 6, 2011 / Notices

                                                  guidance to industry on the                             III. Electronic Access                                be received before the close of the
                                                  implementation of the fee provisions of                    Persons with access to the Internet                comment period.
                                                  section 107 of the FDA Food Safety                      may obtain the guidance document at                      3. By hand or courier. If you prefer,
                                                  Modernization Act of 2011 (FSMA)                        either http://www.fda.gov/                            you may deliver, by hand or courier,
                                                  (Pub. L. 111–353). Section 107 of FSMA                  RegulatoryInformation/Guidances/                      your written comments before the close
                                                  amended section 743 of the Federal                      default.htm or http://                                of the comment period to Office of
                                                  Food, Drug, and Cosmetic Act to                         www.regulations.gov. Always access an                 Inspector General, Department of Health
                                                  provide FDA with the authority to                       FDA guidance document by using                        & Human Services, Cohen Building,
                                                  collect fees related to food. In the                    FDA’s Web site listed previously to find              Room 5541, 330 Independence Avenue,
                                                  Federal Register of August 1, 2011 (76                  the most current version of the                       SW., Washington, DC 20201. Because
                                                  FR 45820), FDA published a notice                       guidance.                                             access to the interior of the Cohen
                                                  establishing fee rates for FY 2012 for                                                                        Building is not readily available to
                                                                                                            Dated: September 30, 2011.                          persons without Federal Government
                                                  domestic and foreign facility
                                                                                                          Leslie Kux,                                           identification, commenters are
                                                  reinspections, recall orders, and
                                                  importer reinspections. On October 1,                   Acting Assistant Commissioner for Policy.             encouraged to schedule their delivery
                                                  2011, FDA will begin implementation of                  [FR Doc. 2011–25831 Filed 10–5–11; 8:45 am]           with one of our staff members at (202)
                                                  the fee provisions of section 107 of                    BILLING CODE 4160–01–P                                619–1343.
                                                                                                                                                                   We do not accept comments by FAX
                                                  FSMA. The guidance document is
                                                                                                                                                                transmission. All submissions received
                                                  intended to provide answers to common
                                                                                                          DEPARTMENT OF HEALTH AND                              must include the agency name and
                                                  questions that might arise about the new
                                                                                                          HUMAN SERVICES                                        docket number for this Federal Register
                                                  fee provisions and FDA’s plans for their
                                                                                                                                                                document. All comments, including
                                                  implementation in FY 2012.                              Office of Inspector General                           attachments and other supporting
                                                     This guidance is being issued                                                                              materials received, are subject to public
                                                  consistent with FDA’s good guidance                     [Docket Number: OIG–1204–N]
                                                                                                                                                                disclosure.
                                                  practices (GGP) regulation (§ 10.115 (21                Proposed Revision of Performance                      FOR FURTHER INFORMATION CONTACT:
                                                  CFR 10.115)). This guidance is being                    Standards for State Medicaid Fraud                    Richard B. Stern, OIG Office of
                                                  implemented without prior public                        Control Units                                            Evaluation and Inspections, (202)
                                                  comment because the Agency has                                                                                   619–0480.
                                                  determined that prior public                            AGENCY: Office of Inspector General                   Patrice S. Drew, Office of External
                                                  participation is not feasible or                        (OIG), HHS.                                              Affairs, (202) 619–1368.
                                                  appropriate (§ 10.115(g)(2)). The Agency                ACTION: Notice and opportunity for                    SUPPLEMENTARY INFORMATION:
                                                  made this determination because the fee                 comment.
                                                  provisions of FSMA are currently being                                                                        I. Background
                                                  implemented, and guidance is needed to                  SUMMARY:    This notice seeks comment on                 The mission of the MFCUs, as
                                                  help effectuate the implementation. The                 an OIG proposal to revise standards for               established in Federal statute, is to
                                                  guidance provides information                           assessing the performance of the State                investigate and prosecute Medicaid
                                                  necessary for affected persons to                       Medicaid Fraud Control Units (MFCUs                   provider fraud and patient abuse and
                                                  understand the implementation of these                  or Units). This proposal would replace                neglect. The States are responsible for
                                                  FSMA fee provisions. Although this                      and supersede standards published on                  operation of the MFCUs and receive
                                                  guidance document is immediately in                     September 26, 1994 (59 FR 49080).                     reimbursement for a percentage of their
                                                  effect, it remains subject to comment in                DATES: To ensure consideration, public                costs from the Federal Government.
                                                  accordance with the Agency’s GGP                        comments must be delivered to the                     Under section 1903(a)(6) of the Social
                                                  regulation.                                             address provided below by no later than               Security Act (Act), States are
                                                                                                          5 p.m. on December 5, 2011.                           reimbursed for 90 percent of their costs
                                                     The guidance represents the Agency’s
                                                  current thinking on this topic. It does                 ADDRESSES: In commenting, please refer                for the first 3 years of an MFCU’s
                                                  not create or confer any rights for or on               to the file code OIG–1204–N. Because of               operation and 75 percent for subsequent
                                                  any person and does not operate to bind                 staff and resource limitations, OIG                   years. All MFCUs are currently
                                                  FDA or the public. An alternative                       cannot accept comments by facsimile                   reimbursed at 75 percent of the costs of
                                                  approach may be used if such approach                   (FAX) transmission. You may submit                    operating a certified MFCU.
                                                  satisfies the requirements of the                       comments in one of three ways (no                        OIG is delegated authority under
                                                  applicable statutes and regulations.                    duplicates, please):                                  1903(q) and 1903(a)(6) of the Act to
                                                                                                             1. Electronically. You may submit                  certify and annually recertify Units as
                                                  II. Comments                                            electronic comments on specific                       eligible for Federal Financial
                                                                                                          recommendations and proposals                         Participation (FFP), and to reimburse
                                                    Interested persons may submit to the                  through the Federal eRulemaking Portal                States for costs incurred in operating an
                                                  Division of Dockets Management (see                     at http://www.regulations.gov.                        MFCU. Through the certification and
                                                  ADDRESSES) either electronic or written                    2. By regular, express, or overnight               recertification process, OIG ensures that
                                                  comments regarding the guidance                         mail. You may send written comments                   the Units meet the requirements for FFP
                                                  document. It is only necessary to send                  to the following address: Office of                   set forth in section 1903(q) of the Act
                                                  one set of comments. It is no longer
mstockstill on DSK4VPTVN1PROD with NOTICES




                                                                                                          Inspector General, Office of                          and in OIG regulations found at 42 CFR
                                                  necessary to send two copies of mailed                  Congressional and Regulatory Affairs,                 part 1007. The performance standards
                                                  comments. Identify comments with the                    Department of Health & Human                          set forth in this guidance document
                                                  docket number found in brackets in the                  Services, Attention: OIG–118–N, Room                  constitute the standards that OIG will
                                                  heading of this document. Received                      5541, Cohen Building, 330                             apply in determining the effectiveness
                                                  comments may be seen in the Division                    Independence Avenue, SW.,                             of State Units in carrying out MFCU
                                                  of Dockets Management between 9 a.m.                    Washington, DC 20201. Please allow                    required functions. As part of the
                                                  and 4 p.m., Monday through Friday.                      sufficient time for mailed comments to                recertification process, OIG reviews


                                             VerDate Mar<15>2010   16:07 Oct 05, 2011   Jkt 226001   PO 00000   Frm 00040   Fmt 4703   Sfmt 4703   E:\FR\FM\06OCN1.SGM   06OCN1
                                                                               Federal Register / Vol. 76, No. 194 / Thursday, October 6, 2011 / Notices                                           62075

                                                  reports from the Units, obtains                         Unit’s implementation of any such                        D. The Unit employs a number of
                                                  information from other Federal and                      recommendations. Ultimately, a Unit                   support staff in relation to its overall
                                                  State agencies, and conducts periodic                   that is continuously not operating                    size that allows the Unit to operate
                                                  onsite reviews.                                         effectively could be designated as a                  effectively.
                                                     Under 1903(q), an MFCU must be a                     high-risk grantee and OIG may make a                     E. Office locations are distributed
                                                  ‘‘single, identifiable entity of the State              separate determination regarding the                  throughout the State, and are adequately
                                                  government’’ and be ‘‘separate and                      Unit’s certification status under section             staffed, commensurate with the volume
                                                  distinct’’ from the State Medicaid                      1903(q). Based on our experience in                   of case referrals and workload for each
                                                  agency. The Unit must be an office of                   overseeing the MFCUs since 1994, we                   location.
                                                  the State Attorney General’s office,                    are proposing in this notice to revise the
                                                  another State government office with                                                                          Performance Standard 3—Policies and
                                                                                                          standards.                                            Procedures
                                                  statewide prosecutorial authority, or
                                                  operate under a formal arrangement                      II. Standards for Assessing MFCU                         A Unit establishes written policies
                                                  with the State Attorney General’s office.               Performance                                           and procedures for its operations and
                                                  The MFCU must investigate and                           Performance Standard 1—Compliance                     ensures that staff are familiar with, and
                                                  prosecute Medicaid fraud cases, under                   With Requirements                                     adhere to, policies and procedures. In
                                                  State law, on a statewide basis. OIG                                                                          meeting this standard, the following
                                                  regulations also require MFCUs to enter                   A Unit conforms with all applicable                 performance indicators will be
                                                  into agreements with the State Medicaid                 statutes, regulations, and policy                     considered:
                                                  agency to ensure the referral of                        directives, including:                                   A. The Unit has written guidelines or
                                                  suspected provider fraud cases.                           A. Section 1903(q) of the Social                    manuals that contain current policies
                                                     Under the statute, a MFCU must also                  Security Act, containing the basic                    and procedures, consistent with these
                                                  have procedures for investigating and                   requirements for operation of a MFCU;                 performance standards, for the
                                                  prosecuting (or referring for                             B. OIG regulations for operation of a               investigation and prosecution of
                                                  prosecution) allegations of patient abuse               MFCU contained in 42 CFR part 1007;                   Medicaid fraud and patient abuse and
                                                  and neglect in Medicaid-funded                            C. Other Federal regulations and                    neglect.
                                                  facilities. A MFCU may also investigate                 policies applicable to the Medicaid                      B. The Unit adheres to current
                                                  and prosecute abuse and neglect in                      program, including grant administration               policies and procedures in its
                                                  ‘‘board and care’’ facilities, such as                  requirements at 45 CFR part 92 and                    operations.
                                                  assisted living facilities, even if such                Federal cost principles at 2 CFR part                    C. Procedures include a process for
                                                  facilities do not receive Medicaid                      225;                                                  referring cases, when appropriate, to
                                                  payments. Finally, the statute and                        D. OIG policy transmittals as                       Federal and State agencies. Referrals to
                                                  regulations require that MFCUs be                       maintained on the OIG Web site; and                   State agencies, including the State
                                                  composed of a team of attorneys,                          E. Other applicable conditions of the               Medicaid agency, should identify
                                                  auditors, and investigators.                            State’s award.                                        whether further investigation or other
                                                     Under section 1902(a)(61) of the Act,                Performance Standard 2—Staffing                       administrative action is warranted, such
                                                  as added by Public Law 103–66, section                                                                        as the collection of overpayments.
                                                  13625 (1994), all States must operate                      A Unit maintains reasonable staff                     D. Written guidelines and manuals are
                                                  MFCUs unless they demonstrate to the                    levels and office locations in relation to            readily available to all Unit staff, either
                                                  Secretary of HHS that they can operate                  the State’s Medicaid program                          online or in hard copy.
                                                  without a Unit. Currently, 49 States and                expenditures and in accordance with                      E. Policies and procedures address
                                                  the District of Columbia have                           staffing allocations approved in its                  training standards for Unit employees.
                                                  established MFCUs and 1 State, North                    budget. In meeting this standard, the
                                                  Dakota, operates without a MFCU after                   following performance indicators will                 Performance Standard 4—Maintaining
                                                  receiving permission from HHS in 1994.                  be considered:                                        Adequate Referrals
                                                  Under section 1902(a)(61), States must                     A. The Unit employs the number of                     A Unit takes steps to maintain an
                                                  operate a MFCU that effectively carries                 staff that is included in the Unit’s                  adequate volume and quality of referrals
                                                  out the functions and requirements                      budget estimate as approved by OIG.                   from the single State Medicaid agency
                                                  described in 1903(q), as determined in                     B. The Unit employs a total number                 and other sources. In meeting this
                                                  accordance with standards established                   of professional staff, including                      standard, the following performance
                                                  by the Secretary of HHS. The guidance                   attorneys, auditors, and investigators,               indicators will be considered:
                                                  proposed in this Federal Register notice                that is commensurate with the State’s                    A. The Unit takes steps, such as the
                                                  sets forth the performance standards                    total Medicaid program expenditures                   development of operational protocols, to
                                                  OIG will consider in determining                        and that enables the Unit to effectively              ensure that the State Medicaid agency
                                                  whether State MFCUs are effectively                     investigate and prosecute (or refer for               and other agencies refer to the Unit all
                                                  carrying out their statutory functions                  prosecution) the volume of case referrals             suspected provider fraud cases.
                                                  under 1903(q).                                          and workload for both Medicaid fraud                     B. Consistent with 42 CFR 1007.9(g),
                                                     These standards amend and update                     and patient abuse and neglect.                        the Unit provides timely written notice
                                                  performance standards that were                            C. The Unit employs a mix and                      to the State Medicaid agency when
                                                  initially published in 1994. The                        number of attorneys, auditors,                        referred cases are accepted or declined
                                                  performance standards have been used                    investigators, and other professional                 for investigation.
mstockstill on DSK4VPTVN1PROD with NOTICES




                                                  by OIG as part of the certification                     staff, that is both commensurate with                    C. The Unit provides periodic
                                                  process to assess whether a MFCU is                     the State’s total Medicaid program                    feedback to the State Medicaid agency
                                                  operating effectively. Where OIG                        expenditures and that allows the Unit to              and other referral sources on the
                                                  determines there are deficiencies in                    effectively investigate and prosecute (or             adequacy of both the volume and
                                                  meeting the standards, OIG will work                    refer for prosecution) the volume of case             quality of its referrals.
                                                  with the Unit to improve performance.                   referrals and workload for both                          D. The Unit provides timely
                                                  OIG may also make recommendations                       Medicaid fraud and patient abuse and                  information to the State Medicaid
                                                  for improvement and will monitor the                    neglect.                                              agency when the Medicaid agency


                                             VerDate Mar<15>2010   16:07 Oct 05, 2011   Jkt 226001   PO 00000   Frm 00041   Fmt 4703   Sfmt 4703   E:\FR\FM\06OCN1.SGM   06OCN1
                                                  62076                        Federal Register / Vol. 76, No. 194 / Thursday, October 6, 2011 / Notices

                                                  requests information on the status of                   standard, the following performance                   such as training activities for provider
                                                  MFCU investigations, including when                     indicators will be considered:                        groups and other public integrity or law
                                                  the Medicaid agency requests quarterly                     A. Supervisory reviews are conducted               enforcement offices; outreach and
                                                  certification pursuant to 42 CFR                        periodically, consistent with MFCU                    training for State and county social
                                                  455.23(d)(3)(ii).                                       policies and procedures, and are noted                service agencies; liaison meetings with
                                                    E. The Unit takes steps to ensure that                in the case file.                                     managed care organizations; and
                                                  the State Long Term Care Ombudsman                         B. Case files include all relevant facts           publication of fraud alerts or other
                                                  and other officials and agencies refer to               and information and justify the opening               information for areas within the Unit’s
                                                  the Unit suspected patient abuse and                    and closing of the cases.                             jurisdiction.
                                                  neglect cases.                                             C. Significant documents, such as
                                                                                                                                                                   C. The Unit establishes annual
                                                    F. The Unit takes steps, through                      charging documents and settlement
                                                                                                                                                                performance goals for each identified
                                                  public outreach or other means, to                      agreements, are included in the file.
                                                                                                             D. Interview summaries are written in              outcome.
                                                  encourage the public to refer cases to
                                                                                                          a timely manner, as defined by MFCU                      D. The Unit annually evaluates
                                                  the Unit.
                                                                                                          policies and procedures.                              whether it has achieved its goals.
                                                  Performance Standard 5—Maintaining a                       E. The Unit has an information                        E. If the Unit maintains a strategic
                                                  Continuous Case Flow                                    management system that manages and                    plan, the Unit aligns performance
                                                    A Unit takes steps to maintain a                      tracks case information from initiation               outcomes and goals with the plan.
                                                  continuous case flow and to complete                    to resolution.
                                                                                                             F. The Unit has an information                     Performance Standard 9—Cooperation
                                                  cases in an appropriate timeframe based                                                                       With Federal Authorities on Fraud
                                                  on the complexity of the cases. In                      management system that allows for the
                                                                                                          reporting of aggregate case information.              Cases
                                                  meeting this standard, the following
                                                  performance indicators will be                          Performance Standard 8—Performance                       A Unit cooperates with OIG and other
                                                  considered:                                             Outcome and Measurement                               Federal agencies in the investigation
                                                    A. Supervisors approve the opening                       A Unit has a process for monitoring                and prosecution of Medicaid and other
                                                  and closing of all investigations.                      and measuring the outcome of cases. In                health care fraud. In meeting this
                                                    B. Supervisors review the progress of                                                                       standard, the following performance
                                                                                                          meeting this standard, the following
                                                  cases as part of a performance                          performance indicators will be                        indicators will be considered:
                                                  management system and take action as                    considered when determining how                          A. The Unit communicates on a
                                                  necessary to ensure that each stage of an               effectively the Unit detects, investigates            regular basis with the OIG Office of
                                                  investigation and prosecution is                        and prosecutes (or refers for                         Investigations (OI) and other Federal
                                                  completed in an appropriate timeframe.                  prosecution) Medicaid fraud and patient               agencies investigating or prosecuting
                                                    C. Delays to investigations and                       abuse and neglect:                                    health care fraud in the State.
                                                  prosecutions are supported and justified                   A. The Unit maintains a performance                   B. The Unit cooperates and, as
                                                  based on resource constraints or other                  management system or relies upon the                  appropriate, coordinates with OI and
                                                  exigencies.                                             State’s performance management system                 other Federal agencies on cases being
                                                  Performance Standard 6—Case Mix                         as it applies to the Unit.                            pursued jointly, cases involving the
                                                                                                             B. If establishing its own performance             same suspects or allegations, and cases
                                                     A Unit’s case mix, as practicable,                   system, the Unit develops performance
                                                  covers all significant provider types and                                                                     that have been referred to the Unit by
                                                                                                          outcomes, such as the following:                      OI or another Federal agency.
                                                  includes a mix of fraud and patient                        1. The number of cases opened and
                                                  abuse and neglect cases. In meeting this                                                                         C. The Unit makes available, upon
                                                                                                          closed and the reason that cases are
                                                  standard, the following performance                                                                           request by Federal investigators and
                                                                                                          closed.
                                                  indicators will be considered:                             2. The length of time taken to                     prosecutors, all information in its
                                                     A. The Unit seeks to have a mix of                   determine whether to open a case                      possession concerning provider fraud or
                                                  cases from all significant provider types               referred by the State Medicaid agency or              fraud in the administration of the
                                                  in the State.                                           other referring source.                               Medicaid program.
                                                     B. For those States that rely                           3. The number, age, and types of cases                D. For cases that require the granting
                                                  substantially on managed care entities                  in the Unit’s inventory/docket.                       of ‘‘extended jurisdiction’’ to investigate
                                                  for the provision of Medicaid services,                    4. The number of referrals received by             Medicare or other Federal health care
                                                  the Unit includes a commensurate                        the Unit and the number of referrals to               fraud, the Unit seeks permission from
                                                  number of managed care cases in its mix                 other agencies made by the Unit.                      OI or other relevant agencies under
                                                  of cases.                                                  5. The dollar amount of overpayments               procedures as set by those agencies.
                                                     C. The Unit seeks to allocate resources              identified.                                              E. For cases that have significant civil
                                                  among provider types based on levels of                    6. The number of cases criminally                  fraud potential, the Unit investigates
                                                  Medicaid expenditures or other risk                     prosecuted by the Unit or referred to                 and prosecutes such cases under State
                                                  factors. Special Unit initiatives may                   others for prosecution, the number of                 authority or refers such cases to OIG or
                                                  focus on specific provider types.                       individuals or entities charged, and the              the U.S. Department of Justice.
                                                     D. As part of its case mix, the Unit at              number of pending prosecutions.
                                                  all times maintains a substantial number                   7. The number of criminal convictions                 F. The Unit transmits to OIG, for
                                                  of patient abuse and neglect cases.                     and the number of civil judgments.                    purposes of program exclusions under
                                                                                                                                                                section 1128 of the Act, all pertinent
mstockstill on DSK4VPTVN1PROD with NOTICES




                                                                                                             8. The dollar amount of fines,
                                                  Performance Standard 7—Maintaining                      penalties, and restrictions ordered in a              information on MFCU convictions
                                                  Case Information                                        criminal case; the dollar amount of                   within 30 days of sentencing, including
                                                     A Unit maintains case files in an                    recoveries and the types of relief                    charging documents, plea agreements,
                                                  effective manner and develops a case                    obtained through civil judgments or                   and sentencing orders.
                                                  management system that allows efficient                 prefiling settlements.                                   G. The Unit reports qualifying cases to
                                                  access to case information and other                       9. Non-case specific work of the Unit              the Healthcare Integrity & Protection
                                                  performance data. In meeting this                       which enhances the Unit’s mission,                    Databank or successor data bases.


                                             VerDate Mar<15>2010   16:07 Oct 05, 2011   Jkt 226001   PO 00000   Frm 00042   Fmt 4703   Sfmt 4703   E:\FR\FM\06OCN1.SGM   06OCN1
                                                                               Federal Register / Vol. 76, No. 194 / Thursday, October 6, 2011 / Notices                                              62077

                                                  Performance Standard 10—Program                         Performance Standard 12—Fiscal                        DEPARTMENT OF HEALTH AND
                                                  Recommendations                                         Control                                               HUMAN SERVICES
                                                    A Unit makes statutory or                                A Unit exercises proper fiscal control             National Institutes of Health
                                                  programmatic recommendations, when                      over Unit resources. In meeting this
                                                  warranted, to the State government. In                  standard, the following performance                   Submission for OBM Review;
                                                  meeting this standard, the following                    indicators will be considered:                        Comment Request; New Proposed
                                                  performance indicators will be                                                                                Collection, Environmental Science
                                                                                                             A. The Unit director, or the director’s            Formative Research Methodology
                                                  considered:
                                                                                                          designee, approves and signs the Unit’s               Studies for the National Children’s
                                                    A. The Unit, when warranted and                       budget and estimated expenditures.
                                                  appropriate, makes statutory                                                                                  Study
                                                  recommendations to the State                               B. The Unit director, or the director’s
                                                                                                                                                                SUMMARY:    Under the provisions of
                                                  legislature to improve the operation of                 designee, approves and signs all fiscal
                                                                                                                                                                Section (3507(a)(1)(D)) of the Paperwork
                                                  the Unit, including amendments to the                   and administrative reports concerning                 Reduction Act of 1995, the National
                                                  enforcement provisions of the State                     Unit expenditures.                                    Institutes of Health (NIH) has submitted
                                                  code.                                                      C. The Unit maintains an equipment                 to the Office of Management and Budget
                                                    B. The Unit, when warranted and                       inventory that is updated on a regular                (OMB) a request for reinstatement of
                                                  appropriate, makes other regulatory or                  basis to reflect all property under the               approval of the information collection
                                                  administrative recommendations                          Unit’s control.                                       listed below. This proposed information
                                                  regarding program integrity issues to the                  D. The Unit maintains an effective                 collection was previously published in
                                                  State Medicaid agency and to other                                                                            the Federal Register on April 27, 2011,
                                                                                                          time and attendance system.
                                                  agencies responsible for Medicaid                                                                             pages 23603–23605, and allowed 60
                                                  operations or funding.                                     E. The Unit applies generally                      days for public comment. Two written
                                                                                                          accepted accounting principles in its                 comments and two verbal comments
                                                    C. The Unit monitors actions taken by                 control of Unit funding.                              were received. The verbal comments
                                                  the State legislature and the State
                                                                                                             F. The Unit employs a financial                    expressed support for the broad scope of
                                                  Medicaid or other agencies in response
                                                                                                          system in which all funds are assigned                the study. The written comments were
                                                  to recommendations.
                                                                                                          to individual accounts according to                   identical and questioned the cost and
                                                    D. The Unit reports program                                                                                 utility of the study. The purpose of this
                                                  recommendations to OIG.                                 their source and all expenditure items
                                                                                                                                                                notice is to allow an additional 30 days
                                                                                                          can be traced to the original funding
                                                  Performance Standard 11—Agreement                                                                             for public comment. The National
                                                                                                          stream and account.
                                                  With Medicaid Agency                                                                                          Institutes of Health may not conduct or
                                                                                                          Performance Standard 13—Training                      sponsor, and the respondent is not
                                                    A Unit periodically reviews its                                                                             required to respond to, an information
                                                  Memorandum of Understanding (MOU)                          A Unit maintains an annual training                collection that has been extended,
                                                  with the single State Medicaid agency to                plan for all professional disciplines. In             revised, or implemented on or after
                                                  ensure that it reflects current practice,               meeting this standard, the following                  October 1, 1995, unless it displays a
                                                  policy, and legal requirements. In                      performance indicators will be                        currently valid OMB control number.
                                                  meeting this standard, the following                    considered:                                              Proposed Collection: Title:
                                                  performance indicators will be                             A. The Unit maintains a training plan              Environmental Science Formative
                                                  considered:                                                                                                   Research Methodology Studies for the
                                                                                                          for each professional discipline that
                                                    A. The MOU reflects current policy                                                                          National Children’s Study (NCS). Type
                                                                                                          includes an annual minimum number of
                                                  and practice by both the Unit and the                                                                         of Information Request: New. Need and
                                                                                                          training hours and that is at least as
                                                  State Medicaid agency.                                                                                        Use of Information Collection: The
                                                                                                          stringent as required for professional                Children’s Health Act of 2000 (Pub. L.
                                                    B. The MOU meets current Federal                      certification.                                        106–310) states:
                                                  legal requirements as contained in law                     B. The Unit ensures that professional
                                                  or regulation, including 42 CFR                                                                                 (a) PURPOSE.—It is the purpose of this
                                                                                                          staff complies with its training plans                section to authorize the National Institute of
                                                  § 455.21, ‘‘Cooperation with State                      and maintains records of the staff’s                  Child Health and Human Development* to
                                                  Medicaid fraud control units,’’ and 42                                                                        conduct a national longitudinal study of
                                                                                                          compliance.
                                                  CFR 455.23, ‘‘Suspension of payments                                                                          environmental influences (including
                                                  in cases of fraud.’’                                       C. Professional certifications are                 physical, chemical, biological, and
                                                    C. The MOU is consistent with                         maintained for all staff, including                   psychosocial) on children’s health and
                                                  current Federal and State policy,                       continuing education requirements.                    development.
                                                                                                                                                                  (b) IN GENERAL.—The Director of the
                                                  including any policies issued by OIG or                    D. The Unit participates in training               National Institute of Child Health and
                                                  the Centers for Medicare & Medicaid                     offered by OIG, CMS, and other MFCUs,                 Human Development* shall establish a
                                                  Services (CMS).                                         as funding permits.                                   consortium of representatives from
                                                    D. Consistent with Performance                           E. Through cross-training or by other              appropriate Federal agencies (including the
                                                                                                                                                                Centers for Disease Control and Prevention,
                                                  Standard 4, the MOU establishes a                       means, Unit staff receive training on the             the Environmental Protection Agency) to—
                                                  process to ensure the receipt of an                     role and responsibilities of the State                  (1) plan, develop, and implement a
                                                  adequate volume and quality of referrals                Medicaid agency and other law
mstockstill on DSK4VPTVN1PROD with NOTICES




                                                                                                                                                                prospective cohort study, from birth to
                                                  to the Unit from the State Medicaid                     enforcement partners.                                 adulthood, to evaluate the effects of both
                                                  agency.                                                                                                       chronic and intermittent exposures on child
                                                                                                          Daniel R. Levinson,                                   health and human development; and
                                                    E. The MOU incorporates by reference
                                                                                                          Inspector General.                                      (2) investigate basic mechanisms of
                                                  the CMS Performance Standard for                                                                              developmental disorders and environmental
                                                  Referrals of Suspected Fraud from a                     [FR Doc. 2011–25894 Filed 10–5–11; 8:45 am]
                                                                                                                                                                factors, both risk and protective, that
                                                  Single State Agency to a Medicaid                       BILLING CODE 4152–01–P                                influence health and developmental
                                                  Fraud Control Unit.                                                                                           processes.



                                             VerDate Mar<15>2010   16:07 Oct 05, 2011   Jkt 226001   PO 00000   Frm 00043   Fmt 4703   Sfmt 4703   E:\FR\FM\06OCN1.SGM   06OCN1
